November 19, 2020
Office of Attorney General
William Barr(U.S. Attorney General)
Department of Justice, 950 Pennsylvania Ave N.W.
Washington, DC 20530-0001

Via Postal Mail
RE: Notice to the Attorney General
Rule 5.1 implements 28 U.S.C. §2403 New Rule 5.1 requires a party that files a pleading,
written motion, or other paper drawing in question the constitutionality of a Federal or
State statute to file a notice of Constitutional Question and serve it on the United States
Attorney General or State Attorney General. The party must promptly file and serve the
notice of Constitutional Question.
The papers submitted purposely identify that the Constitutionality of a Federal or State
statute is drawn in question. This is not the first notice sent to inform about the above.
Petitioner filed for Mandamus which brought into question the Constitutionality of the
United States Constitution under the 1st, 2nd , 4th 5th’ 6th’7th’ 8th, and 14th Amendment.
This letter is enclosed as related to the above regulation.

Respectfully Submitted,

Theresa S. Romain(Petitioner)

1.

